©.
€»
rj' qj:

No.

;■ -"'V'r r>-. r1 * i,
Supreme Court, LLS!
FILED

FES 0 2 CT
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Noel Christopher TUmer

— PETITIONER

(Your Name)
vs.
Bobby Lumpkin, Director of TDCJ_ RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals - Fifth C.iremit________________________

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Noel Chri stnpher Turner-

(Your Name)
1400 FM 3452
(Address)
Palestine, Texas 75803
(City, State, Zip Code)
U/A
(Phone Number)

QUESTION(S) PRESENTED

1. Are the lower Courts misinterpreting and applying the United States Supreme
Courts decision in McQuiggin v. Perkins, 569 U.S. 383, 133 S.Ct. 1924, ___
L.Ed. 2d

(2013)?

2. Has the lower courts misapplied the "Equitable Tolling" standards in these
cases? Are they perhaps setting an impossible to meet standard for Equitable
Tolling despite this Court's various holdings such as in Holland v. Florida,
560 U.S. 631, 645 (2010):and under 28 U.S.C. §2244(d)(1)(D)?
3. Was Turner inadvertently denied access to the "gateway" of Actual Innocence :
as set forth by the U.S. Supreme Court in: Schlup v. Delo, 115 S.Ct. 851
(1995); Herrera v. Collings, 506 U.S. 390 (1993); House v. Bell, 547 U.S.
518 (2006); and McQuiggin v. Perkins, 133 S.Ct. 1924 (2013)? Is the courts
adding additional barriers to these holdings?
4. Did Turner reach and prove the constitutional error of Ineffective
Assistance of Counsel in these cases?

i

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
. State v. Turney No. 062316, 397th District Court of Grayson County, Texas
Sentenced March 25, 2013
. State v. Timer, 'No. 062317 , 397th District Court of Grayson County, Texas
Sentenced March 25, 2013
• State v. Turner, No. 062343, 397th District Court of Grayson County, Texas
Sentenced March 25, 2013
• Timer v. Director of 1DCJ,WR 86,301-01, Texas Court of Criminal Appeals
Judgfnenb entered on February 8 2017.
. Turner v. Director of TDCJ, WR 86,301-02, Texas Court of Criminal Appeals
^^dgiiijnt entered on February 8, 2017.
• Turner v. Director of TDCJ, WR 86 , 301-03, Texas Court of Criminal Appeals
Judgment entered on February 8, 2017.
• TUmer v. Director of TDCJ, 4:17-CV-326 (CONSOLIDATED WITH 4:17-CV-327 &
4:17-CV-328), U.S. District Court, Eastern District of Texas. Judgment
entered on July 8, 2019.
• Turner v. Director of TDCJ, No. 19-40696, U.S. Court of Appeals, Fifth
Circuit. Judgment entered on September 8, 2020; Reconsideration judgment
enteredOctober 7, 2020.
ii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

8

CONCLUSION

32

INDEX TO APPENDICES
APPENDIX A - Decision of U.S. Court of Appeals - 5th Circuit
ORDER OF FINAL JUDGMENT
APPENDIX B - Order of U.S. Court of Appeals - 5th Circuit
MOTION FOR RECONSIDERATION DENIED
APPENDIX C - U.S. District Court, Eastern District of Texas, Sherman Div.
ORDER OF DISMISSAL & FINAL JUDGMENT
APPENDIX D - U.S. District Court, Eastern District of Texas, Sherman Div.
RETORT AND RECOMMENDATION OF U.S. MAGISTRATE JUDGE
f

APPENDIX E - Correspondance to show "Due Diligence"
APPENDIX F -Various Exhibits to-Show Actual Innocence claim.

iii

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Ake v. Oklahoma, 470,U.S. 78, 105 S.Ct, 1087, __ L.Ed.2d__ (1985)

......... 29, 30

Anderson v.Johnson, 338 F.3d 382 (5th Cir.2002)............................

... 23, 27,28
l i

Arney v. State, 580 S.W.2d 836 (Tex.Crim.App. 1979)

30

Banks v. Dretke, 540 U.S. 668, 124 S.Ct. 1256, 157 L.Ed.2d 1166 (2004) ..
Barton v. Quarterman, H-07-1192 (S.D. Tex. Houston 2007) .........

» * • * e

(<
* •<• * • •

32

13

Bowles v. Russell, __ UlJs.___, 127 S.Ct. 2360, ___L.Ed,2d__ (2007) ... j|„..13, 15
Boykin v. Alabama, 395 Uils. 238, 89 S.Ct. 1709, 23 L.Ed.2d 274 (1969)

9

Briggs v. Procunier, 764 F.2d 368 (5th Cir. 1985)............... .

19

Bryan v. Scott, 28 F.3d 1411 (5th Cir. 1994) ........................

23, 28

Bullard v. Estelle, 665 F^d 1347 (5th Cir. 1982) .............

11

19

Cardenas v. State, 960 S.W. 2d 941 (Tex.App. Texarkana 1998)

11

Childress v. Johnson, 103 Fl|3d 1221 (5th Cir. 1997) ..

19

Colman v. Johnson, 184 F.3d 398 (5th Cir 1999) .........

13

Davis v. Hall, 375 Fl 13d 703 ( 8th Cir. 2004) ..............

9

Davis v. Johnson, 158 F.3d 806 (5th Cir. 1998) ..........

13, 14

Earl v. State, 870 S.W.2d 669 (Tex.App. 1994) ............

19

Ex Parte Elizondo, 9^7 S.W.2d 202 (Tex.Crim.App. 1996)

!|.!|

12

Ex Parte Moussazada, 361 S?W23d 684 (Tex.Crim.App. 2012) . .J|..........

11

Ex Parte Spencer, 337 S.W.3d 869 (Tex.Crim.App. 2011) ......................

19

Ex Parte Tuley, 109 S.W.3d 388 (Tex.Crim.App. 2002) .........................

12

Felder v. Johnson, 204 F.3d 168 (5th Cir. 2000)

..............................

13

Fisher v. Johnson, 174 F.3d 710 (5th Cir. 1999) ................................

13, 14

Gideion v. Wainwright, 372 uijs.335, 83 S.Ctll 792,___lifEd.2d___(1963)

24, 29

Haley V. Cockrell, 306 FJ.l3d 257 (5th Cir. 2002)...............................

20

Haliburton v. State, 23 S.W.3d 192 (Tex.App. Waco 2000) .................

30

Harrera v. Collins, 506 U.S. 390,___S.Ct.

iv

L.Ed.2d____(1993) • * » • 7, 16, 19

Herring v. Estell, 491 F.2d 125 (5th Cir. 1974) Jj.,........................................
Hill v. Lockhart, 474 U.S52, 106 S.Ct. 366, 88 L.Ed.2d 203 (1985) ............

27

•

9, 29

Holland v. Florida, 560 U.S.631, 130 S.Ct. 2547, 177 L.Ed.2d 130 (2010).. • 13, 15
Holsonback v. White, 133 F.3d 1382 (11th Cir. 1998)....

25, 26, 28

House v. Balkom, 725 F.2d 455 (11th Cir. 1981)................

31
(2006)............ ,(.. 16> 19

House v. Bell, 547 U.S. 518, 126 S.Ct. 2064, ___ L.Ed.2d_

Info-Hoi INC v. Sound Merch. INC., 538 F.3d 448 (6th Cir. 2008)

• 8, 11

In re Wilson, 442 F.2d 872 (5th Cir. 2006)....................

15

Irwin V. Dept, of Veteran Affairs, 498 U.S.89,__S.Ct.

, __L.Ed.2d__(1990) 13, 15

Johnson,v. Baldwin, 114 F!|3d 835 (9th Cir. 1997) ....

25 , 26 , 28

Kemp v. Leggett, 635 F.2d 453 (5th Cir. 1981)..............

••• 27, 31

King v. Harwood, 852 F.3d 586 (6th Cir. 2017) ............

8

(2012)

Lafler v. Cooper, 566 U.S.__, 132 S.Ct. 1376, __ L.Ed.2d_

8

Lara v. Stephens, 2014 U.S. Dist. LEXIS 64202 (Tex.App. Houston 1st Dist 2004)
Lawrence v. Florida, __ U.S.__fj 127 S.Ct. 1079, __L.Ed.2d__(2007)........... 13, 14,15
Lonchar v. Thomas, 517 U.S. 314, 116 S.Ct. 1293, 134 L.Ed.2d 440 (1996)

15

Machibroda v. United States, 368 uUs.487,82S.Ct.510,7 L.ED2d 473 (1962)

9

Martinez v. Ryan, 10-1001 (2011) (U.S. Supreme Court) ................................

« • * • « ^27/

Mathis v. Thaler, 616 F.3d 461 (5th Cir. 2010)

I »

i
■I

If...

!j

McMann v. Richardson, 397 ulfsLl 759, 90 S.Ct. 1441, 25 L.Ed.2d 763 (1970)
McQuiggin v. Perkins, 569 U.S. 383, 133 S.Ct. 1924,
Melcacon v. Kaylo, 259 FJ3d 401 (5th Cir. 2001)

L(fEd.2d

15
. 9

(2013) 7, 8, 9, 11
12, 16, 22
... 13, 14

Moore v. Knight, 363 F.3d 936 (CA7 2004) ........ .................................

15

Murray v. Whitley, 505 U.S.333, 112 S.Ct. 2514, 120 L.Ed.2d 269 (1992)

16

Nara v. Frank,264 F.3d 310 (CA2 2001).....................................................

15

North Carolian v. Alford, 400 U^fe. 25, 91 S.Ct. 160, 27 L.Ed.2d 162 (1970)

9

Pace v. DiGuglielmo,544 u.S. 408, 125 S.Ct. 1807, 161 L.Ed.2d 669 (2005)13, 14,15
Pacheco v. Ricec,-. 966 F.2d 904 (5th Cir. 1992)

v

15

Phillips v. Donnelly, 216 F.2d 508 (5th Cir. 2000)............................

13

Powell v. Alabama, 287 U.S. 45, 53 S.Ct. 55, _L.Ed,2d_(1932)

25, 31

Rashidi v. American President Lines, 96 F.3d 124 (5th Cir. 1996).

13, 14

Rompilla v. Beard, 645 ui|s. 374, 125 S.Ct. 2456, 162 L.Ed.2d 360(2005)^3,26,27,28
Schlup v. Delo, 513 u.S. 298, 115 S.Ct. 851, 130L.Ed.2d808(1995)
Smith v. Collins, 997 F.2d951 (5th Cir. 1992)

6,7,11,16,18,22

.........................................................

20

Sones v. Hargett,61 F.3d 410 (5th Cir. 1995)

20

Starns v. Andrew, 524 F.3d 612 (CA5 2008)

15

..................................................

Strickland v Washington, 486 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1998)
....................................................................................................... 11,22,27,28,30,31
Sutton v. Cain,

722 F.2d 312 (5th Cir. 2013)

Tollett v. Henderson,

14

411 U.S. 258, 93 S.Ct. 1602, 36 L.Ed.2d 235((1973).......

20

United States v. Maybeck, 23 F.3d 888 (4th Cir. 1994)
United States v. Patterson, 211 F.3d 927 (5th Cir. 2000)

9

*•*«••«**«•*«*••

United States v. Timbana, 222 F.3d 688 (9th Cir. 2000)

«••

13

11,12
'

Wallace v. State,75 S.W.3d 576 (Tex.App. Texarkana 2002)

30

Wiggins v. Stnith, 539 U.S 510,_ SiCtA___,___ L.Ed.2d__(2003) ..................... 27,28,30

STATUTES AND RULES
28 U .S .C .§2244 [Atititerrorism & Effective Death Penalty Act of 1996 ("AEDPA")]
Texas Penal Code 15.02 ..

19,

Texas Code of Criminal Procedures Art. 39.14

30

ABA Standards for Criminal Prosecution Function & Defense Function 4-4.1 (3rd
ecu 1993).23
ABA Standard for Criminal Justice 4-4.1 (2nd ed. 1982 Supp.)

26

OTHER
Ihe Substance of False Confessions, 62 Stan. L. Rev. 1051 (2010) ...

vi

If..

8

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
P] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the United States district court appears at Appendix _C
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
k] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
fcfl For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was September 8, 2020____
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
[X] A timely petition for reconsideration was denied by the
United States Court of Appeals on the . following date:
October 7 2020, a copy of the order denying reconsideration
appears at Appendix
B
[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
O'j'S. CONSTITUTION 5th AMENDMENT:;::No person shall be held to answer for a capital,
or other wise infamous crine.; unless on a presentment or indictment of a Grand
Juryexecpt in cases arising in the land of naval forces, or in the Militia,
when in actual service in time of War or public danger; nor shall any person
be subject for the same offence to be twic put in jeopardy of life or limb;
nor shall be compelled in any criminal;case to be a witness against himself,
nor be deprived of life, libeerty, or property, without due process of law;
nor shall private property be taken for public use, without just compensiation.

U'.|s. CONSTITUTION 6th AMENDMENT: In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an impartial jury of the State
and district therein the crime shall have been committed, whichdistrict shall
have been previously ascertained by law, and to be informed of the nature and
cause of the accusation; to be confronted with the witnesses against him; to
have compulsory process for obtainging witnesses in his favor, and to have the
Assistance of Counsel for his defence.
U.S. CONSTITUTION 14th AMENDMENT SECTION 1: All persons born or naturalized
in the United States, and subject to the jurisdiction thereof, are citizens
of the United States and of th State wherein they reside. No State shall make
or enfoce any law which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny to any peson within
its jurisdiction the equalprotection of the laws.

3

Antiterrorism & Effective Death Penalty Act of 1996 ("AEDPA”) as contained in
28 U.S.C.§2244(d), provides in part that:
(l) A one-year period of limitation shall apply to an application for a writ
of habeas corpus by a person in custody pursuant to the judgment of a State
court. The limitation-period shall run from the latest of (A) the date on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created
by State action in violation of the Constitution or laws of the iJt
United States is removed, if the applicant was prevented from filing
by such State Action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supremem Court, if the right has been newly
recognized by the SupremenCourt and made retroactively applicable
to case on collateral review; or
(D) the date on which the factual predicate of the claim or claims presented
could have been discovered through the exercise of due diligence.
(2) The tiem during which a properly filed application for State post­
conviction or other collateral review with respect to the pertinent
judgment or claim is pending shall not be counted toward any period of
limitation under this subsection.

4

STATEMENT OF THE CASE
Tlimer is challenging three convictions from tire. 397th District Court of
Grayson County, Texas. On Octover 10, 2012 Turner was indicted for: 1 Count
of Credit Card or Debit Card Abuse, a State Jail Felony (Cause #062317), and
1 Count of Sexual Assault Child, a Second Degree Felony (Cause #062316). Thai
on October 24, 2012, Turner was indicted for 1 Count Attempt to Commit Arson,
a Third Degree Felony and 1 Count of Conspiracy to Commit Arson, a Third Degree
Felony (Cause #062343). There were NO enhancements within any of these indictments.
On March 25, 2013. The State refused/dismissed the 1 Count of Attempt to Commit
Arson. Turner then entered the following Plea Agreement!>in writing: Credit
Card Abuse - State Jail Felony, Plead Guilty, sentended to 1 year State Jail;
Sexual Assault, Second Degree Felony, Entered an "ALFORD PLEA", sentenced to
5 years TDCJ; Conspiracy To Gommit Arson, Second Degree Felony, Plead Guilty
BUT was sentenced to as a First Degree Felony (with additional enhancements)
and sentenced to 28 years TDCJ. All sentences were to run concurrently.
Turner did not appeal the convictions.
Turner filed one writ of habeas corpus in State Cburt (WR,86,301-01)
Sexual Assault) on September 15, 2016, and two other writs of habeas corpus
in State Court (WR:86, 301-02: Credit Card Abuse & WR: 86, 301-03: Gonspiracey
to Commit Arson) on September 20, 2016. He argued: 1) Denied Counsel During
Preliminary Hearing; 2) Search Warrants Unconstitutional; 3) Denied Counsel
During Hearing; 4) Denied the Effective Assistance of Counsel; 5) Actual Innocent;
6) Failure to Disclose Evidence; 7) Applicants's Plea Involuntary - Applicant/
Factually Innocent; 8) Range of Punishment Exceed the Statutory Maximum; and
9) Unconstitutional Enhancement of Sentence. On February 8, 2017 the Texas
Court of Criminal Appeals dismissed the application regarding the Credit Card
or Debit Card Abuse conviction for their reasoning that it had been discarged.

5

On the same day, the remaining two applications were denied without written
order on finding of" the trial court without a hearing.
Turner then filed three writs of habeas corpus in the United States District
court, Easten District of Texas on May 2, 2017 (4:17-CV-326 - Credit Card Abuse;
4:17-CV-327 - Sexual Assault; & 4:17-CV-328 - Conspiracy to Commit Arson).
Then on May 29, 2017 Turner was granted to proceed informa pauperis in these
instant cases. Turner presented the same nine (9) Grounds/Issues as he did
in his Artical 11.07 in the State habeas corpus's. (See enumerated list of
these on previous page).

On October 17, 2018 these three writs of habeas c

corpus were consolidated under 4:17-CV-326, as all cases involved Grpyson County
convictions, was sentenced in each on May 23 , 2013. The cases have common*.)
questions of law and fact, thus consolidation would avoid unnecessary duplication
of effor, cost and delay.

On July 8, 2019 Final Judgment was rendered and it

was ordered that (the petitions Tor. av/writ-.of habeas corpus are dismissed with
prejudice as time-barred.
On July 15, 2019 Turner filed his Notice of Filing a Petition for a
Certificate Of Appealability [COA] with the United States Court of Appeals,
Fifth Circuit, No. 19-40696. This notice was timely filed. On August 29, 2019
Thmer filded for a thirty (30) day Extention to file his petition for a CCA,
which the court granted to and including October 30, 2019. On October 16, 2019
Turner filded his Motion for Petition for OOA with Brief in Support; with Exhibits;
presenting: ISSUE N0.1: Does TUmer's Pleas prevent him from filing an "Actual
Innocence" claim? ISSUE NO.2: Does Turner qualify for "Equitable Tolling" under
28 U.S.C §2244(d)(l)(D)? ISSUE N0.3: Does Thmer meet the "Actual Innocence"
gateway, which is n-eviefTime-barred'', under Schlup v. Delo, 115 S.Ct. 851
(1995)? ISSUE NO. 4: Is thq Constitutional error of Ineffective Assistance
of Counsel proven in these cases? (a) Failing to Investigate; (b) Alibi Defense;
.

(c) Failing to secure Discovery; & (d). Failing to file fundemental orations.

6

On September 8, 2020 the U.S. Court of Appeals - Fifth Circuity entered
judgment denying Turner's request for a 00A. The court said that Turner did
not ake the requisit showing that jurist of reason would find it debatable
whether the petition states a valid claim of the denial of a Constitutional
Right and that jurist of reason would find it debatable whether the discrtict
court was correct in its procedural ruling. On September 14, 2020 Turner filed
a Motion for leave for extention of time to file a petition for Rehearing.
This vvas denied on September 18 , 2020 as Turner was informed that a panel rc
rehearing of an administrative order is not allowed. On September 23, 2020
Turner filed a Motion for Extention of Time in order to file a proper motion
for Reconsideration.On September 23, 2020 Turner filed his Motion for Recon­
sideration, presenting: REASON NO. 1 - This Honorable court misapplied the
facts of this case to U.S. Supreme Court's standard set forth in Herrera v.
Gollins, 506 U.S. 390 (1993); REASON NO. 2 - This Honorable court misapplied
the facts of this case to the U.S. Supreme Court's standard of review set forth
in Schlup v. Delo,513 U.S. 298 (1995); REASON NO. 3 - This Honorable court
misinterpreted the U.S. SUpreme Court's decision in McQuiggin v. Perkins, 133
S.Ct. 1924 (2013). On October 7, 2020 the U.S. Court of Appeals - Fifth Circuit
granted to hear my motion for reconsideration and then ordered the motion ,
for reconsideration is denied.
Turner now files a petition for writ of certiorari requesting to proceed
in forma pauperis.

7

REASONS FOR GRANTING THE PETITION
QUESTION 1 -Are the lower Courts misinterpreting and applying the United States
Supreme Courts decision in McQuiggin v. Perkins, 569 U.S. 383, 133
S.Ct. 1924,

L.Ed. 2d

.(2013)?

In the U.S,f« District Court, Easten District of Texas, Sherman Division’s
ORDER of DISMISSAL, it states:
Furthermore, as the Magistrate Judge explained [Appendix D, p.6, lines
1-23] courts have been unwilling to allow prisoners to involke McQuiggin
after pleading guilty..." [Appendix C, lines 19-23]
As this Court has stated,"... 94% of state convictiona are results of guilty
pleas". Lafler v. Cooper, 566. U.S.

, 132 S.Ct. 1376,

L.Ed.2d

(2012).

To allow the mininterpretation and application of McQuiggin would close the
Gourthouse doors to the 94% of State convictions. How many, had plead quilty,
only to later prove their actual innocence? While I do not have the actual number,
we know that it is many - to close these doors due to an involuntary plea would
be a grave injustice. Mr. Brandon L. Garrett, wrote: Over the past two decades,
scholars, social scienctist, and writers have identified at least 250 cases
in vhich they determinied that people likely:! falsely confessed to crimes. New
case are regularly identified." The Substance of False Confessions, 62 Stan.
L. Rev. 1051, 1060 (2010). To allow this misapplication of McQuiggin

to continue

would be a level of abuse of discretion that occurs when a district court "commits
a clear error at judgment, such as applying the incorrect legal standard, mis­
applying the correct legal standard, or relying upon clearly erroneous findings
of fact." King v. Harwood, 852, F.3d 586, 579 (6th Cir 2017) (quoting Info-Hold
'Inc v. Sound Merch., INC. ,538 F.3d 448, 454 (6th Circ2008).
Besides, in McQuiggin

the subject of pleading guility - voluntary or

involuntary - is never mentioned or discussed. It

in fact, "applied the mis-

carriage of justice exception to overcome various procedural defalts. These
include "sucessive" petitions asserting previously rejected claims/’abusive"
petitions asserting in a second petition claims that could have been raised

8

in a first petition, failure to develpp facts in state court, and failure to
observe state procedural rules,including filing deadlines. McQuiggin v. Perkins,
569 U.S. 383, __ , 133 S.Ct. 1924, 1031,

L.Ed 2d

(2013) (citations omitted).

Besides, in the case of Sexual Assault, Turner entered an "Alford Plea",
which, "A defendant entering an Alford plea pleads guilt and consents to the
imposition of a sentence while still proclaiming his or her innocence of the
charged offense. Davis v. Hall,375 F.3d 703, 706 n.2 (8th Cir 2004); See North
Carolina v. Alford,400 U.S. 25, 37, 91 S.Ct. 160, 27 L.Ed.2d 162 (1970).
In Hill. v Lockhart 474 U*S. 52, 56-57, 106 S.Ct. 366, 369, 88 L.Ed.2d
203 (1985), vhen the Court stated that:
The long standing test for determining the validity of a guilty pleas is
"wheterh the plea represents a voluntary and intelligent choice amoun .the
alternative course of action open to the defendant." North Carolina v. Alford,
400 U.S. 25, 31, 91 S.CT. 160, 164, 27 L.Ed.2d 162 (1970); See Boykin v
'
Alabama, 395 U.S. 238, 242, 89 S.Ct. 1709, 1711, 23 L.Ed.2d 274-,(l969)';
Machibroda v. United States, 368 U.S. 487, 493, 82 S.Ct. 510, 513, 7 L.ED.2d
473 (1962).".... "Where as here, a defendantis represented by cousnel during
the plea process and enters his plea upon the avise of counsel, the volunt­
ariness of the plea depends on whenter counsel's advice 'was within the
range of competence demanded of attorneys in criminal cases'". McMann v.
Richardson, 397 U.S. 759, 771, 90 S.Ct. 1441, 1449, 25 L.Ed.2d 763 (1970).
As we explained in Toilett v. Henderson, 411 U.S. 258, 93 S.Ct. 1602, 36
L.Ed.2d 235 (1973), "a defendant who pleads guility upon the advise of consel
'nay only attack the voluntary and intelligent character of the guilty plea
by showing that the advise he recieved from counsel was not within the s
standards set forth in McMann, Ids: at 267, 93 S.Ct. at 1608. Our concern
in McMann v. Richardson, with the quality of Counsel's performance in advising
a defendant whenter to plead quility stemmed from the more general principle
that all defendants facing felony charges are entitled to the effective
assistance of competent counsel." 397 U.S., at 771, and n. 14, 90 S.Ct.
at 1449, and n.14;
In all three of these cases, Tbrner had the same court appointed attorney,
Mr. Garland Cardwell ("Cardwell"). Cardwell refused to file for Discovery in
ANY of these cases, he claimed it as not necessary due to the District Attornys'
Offices "Open File Policy", which in its own accord, fals under Carswells' failing
to be an advocate in the fundamental areas in these cases,c. .See Appendix F, pp.
2-10When Turner requested they obtain an Investigator to pursue Turner's alibies,
obtain documents, etc. Turner was repeateldy told by Cardwell that we would

9

get one "after we pick a jury".
Tlimer even requested Cardwell to obtain an email sent by the alleged victim's
parent to the Detecive that pin-pointed an exact date and time - this would
be exonerating ["Brady Material"] but this never occured. Turner recieved a
letter from Carswll ( see Appendix F, p39) stating'
Mr. Smith has also agreed to provide me.... as well as a copy of the snail
you mentioned from Steve Oliver to Officer Cox, vhich email is not actually
part of the discovery, but Mr. Smith indicated that he would provide a copy
to me if he was able to obrain a copy from Officer Cox."
Yet this never happened.
Mr. Carsell would rot discuss or investigate my alibi ( See Appendix F
p. 37) vhich was even provided by my wife, Amy Turner ("AMY") in writing. Cardwell
even sent me a copy of her-letter (See Appendix F, p.35) while I vas in the
countyjail beofre my "conviction" [see last page of his letter]; despite Cardwell's
claim in a sworn affidavit to my State habeas corpus (11.07), that I did rot
hav any alibi. Cardwell's sworn affidavit was not in fact truthfull.
As this Honorable Court can see by reading my Petition for a Certificate
Of Appealability ("COA"), I have shown this and argued this but can not get
past the Time-bar. In all three cases I felt that I could not prevail with the
attorney they assigned me arri was told that to attempt to rid; my self of Mr.
Cardwell, my next attorney would be worse. I felt helpless and had no vhere
to turn. So, Turner's pleas were not entered volunntarily - but was out of hopele­
ssness by the inducements and threats towards Amy by Mr. Smith (ADA) and the
misrepresentation of Cardwell. Whey else wouls Turner do a plea to a 3rd Degree
Indictment for Conspiracy To Commit Arson (See Appendix E, pi. 13/& 40) for a
sentence imposed with NO enhancement but recieved 28 years for a 1st Degree
felony. He simply would NOT. As in the following court case that states:
Innocent people may plead guilty, for various reasons. An innocent person
may want to take advantage of a discounted sentence in a plea bargain, rahter
than gamble on a far greater sentence if a mistaken verdict is returned,
or a personcmay not know what he is admitting and accept his attorney's
advice that a guilty plea is prudent. Or a peson may be under some pressure
to accept responsiblity for something he did not do, in order to protect

10

someone else, whom he loves of fears, United States v. Timbana, 222 F.3d 688,
718 (9th Cir 2000).
-----------------------------------15it had not been for the lack of advocacy, thus the ineffective assistance
of counsel, TUrner would not have entered into a plea agreement of ANY kind
with these cases. As stated in Ex parte Moussazada,

361 S.W. 3d 684, 690-91

(Tex. Grim. App 2012) "On a claim of invboluntary plea, the standard for the
analysis of harm under Strickland protocal as expressed in these cases may be
generally as 'but for the erroneous advise of counsel, the applicant would not

have plead guility. tf I . This is precisely the case here with Tbrenr. "A'pleas
of guility based upon such misinformation is involutary." Cardenas v. State,

960 S.W.2d 941, 943 (Tex.App.Texarkana 1998).
In the McQuiggin Court, they stated:
The miscarriage of justice exeption, we underscore, applies to a severely
confined category: cases in which new evidence shows'it is more likely than
not that no reasonable juror would have conviceted.'".McQuiggin, 133 S.Ct.
at 1933 (alteration in origianl)(emphasis added)(quoting Schlup,[v. Delo],
513 U.S.at 329)
Thus, it is easy to see that to allow the misinterpretation adn application
of McQuiggin can and will lead to a grave injustice. I hunbly submit to this
Honorable Court to clarify and to give guidance on this ruling to the Justice
System of our great courts.
In McQuiggin Tthe case concerned the "actual innocence" gateway'to fedelral
habeas review applied in Schlup, and futehr explained in House v. Bell, 547
U.S. 518, 126 S.Ct. 2064 (2006). the district Gourt denied Perkins' claims of
actual innocence due to AEDPA's one year limitations period, The Supreme Court
vacated the Court of Appeals' judgment and remanded the case. Justice Ginsburg
held that McQuiggin "clarifies that a federal habeas court, faced with an actualinnocence gateway claim, should count unjustifiable delay on a habeas petitiooner's
part, not as an absolute barrier to relief, but as a factor in determining whether
actual innocence has been reliabley shown. ..." In Turners case, he spent nearly
two years gathering;::,credible information to meet his extremely high burden of
persuasion. Computerized records from Turners bank, that cannot be altered by
human hands, Turners signature on a credit card receipt, a witness statement
11

of the salesperson who sold the furniture to TUmer and his wife, all are highly
credible evidence to support a claim of actual innocence.
The mere fact that a perosn pleas guilty does not absovle him from proceeding
through the gatewas as recognized in Elizondo:
said that our job as to 'decide whether the newly discovered evidence
would have convinced the jury of applicant's innocence."
Ex Parte Elizondo, 947 S.W. 2d 202 (Tex.Crim. App. 1996). The Court also noted,
the policy supporting our holding in Elizondo, that the punishment of an innocent
person violates federal due process, is the same for an applicant regardless
of whether his case was heard by a judge or jury or whether he pleaded guiltyo
or not guilty. Ibid. The Stat's claim that an actual innocence claim is nothing
more than a sufficiency challenge is not true, See Ex Parte Uiley, 109 S.W.3d
388 (Tex .Crim.App. 2002). The Ninth Circuit recognizes that people plead guilty
for various reasons. An innocent person may want to take advantage of a discounted
sentence ina plea bargin (the case here), rather than gamble on a far greater
sentence if a misstaken verdict is returened... or a person may be under some
pressure to accept responsibility for something he did not do, in order to protect
someone else, whom he loves.... See United States v. Timbana, 222 F.3d 688,
718 (9th Cir. 2000).
In turn, the Courts repunish the innocent by refusing to hear gatway innocent
claims, vhich Justice Ginsburg says is not constitutional. See McQuiggin, 133
S.C't. at 1932. There is no rule in McQuiggin to suggest, or alude, that simply
because petitioner plead guilty, upon advice of counsel's erroneous advice,
as claimed, petitioner cannot prove his innocence with newly discovered evidence
obtain through due diligence. As Justice Ginsburg said, "This rule, or
fundamental miscarriage of justice exception, is grounded in the 'equitable
discretion' of habeas courts to see that federal constitutional errors fo not
result in the incarceration of innocent persons.". Id.
For the above reason, a- writ of certiorari should be granted.

12

QUESTION 2 - Ha3 the lower courts misapplied the "Equitable Tolling" standards in
these cases? Are they perhaps setting an impossible to meet standard
for Equitable Tolling despite this Court's various holdings such as
in Holland v. Florida, 560 U.S. 631, 645 (2010)?and under 28 U.S.C.
§2244(d)(l)(D)?
In Barton v. Quarterman, H-07-1192 (S.D. Tex. Houston 2007) it states the
following:
Equitable tolling is an extraordianry remedy that, if available, is only sparingly
applied. See Irwin v. Department of Veterans Affairs , 498 U.S. 89, 96 (1990).
The Fifth:Circuit has held that the statue of limitations found in the AEDPA
[Antiterror ism and Effective Death Penalty Act] may be equitably tolled at the
district court's discretion where "exceptional circumstances" are present.
Colamn v♦ Johnson, 184 F.3d 398, 402 (5th Cir. 1999), cert, denied, 529 U.S.
1057 ( 2000). As the fifth Circuit has explained, the doctrine of equitable : o.. i
tolling "applies principally where the plaintiff is actively misled by the
defendant about the cause of action or is prevented in some extraordianry way
from asserting his rights". Melcacon v. Kaylo , 259 F.3d 401, 407 (5th Cir
2001)(quoting Rashidi v. American President Lines, 96 F.3d 124, 128 (5th Cir.
1996).
The Supreme Court has recently stated that district courts have no
authority to create "equitable exceptions" to statutory time limitations.
See Bowles v. Russell, ___U.S.___ , 127 S.Ct. 2360 , 2366 ( 2007). Assuming that
the AEDPA allows it, the Supreme Court has observed nevertheless that a habeas
corpus petitioner !;|s not entitled to equitable tolling unless he establishes
"(1) that he has been pursuing his rights diligently, and (2) that some ;
extraordinary circumstance stood in his way and prevented timely filing".
Lawrence v. Florida, __ U.S.___, 127 S.Ct. 1079, 1085 (2007) (quoting Pace
v. DiGuglielmo, 544 U.S. 408 , 418 (2005)).......... The Fifth Circuit has observed
that claims of actual innocence, standing alone, are not a "rare and exceptional
circumstance" that warrants equitable tolling of the statue of limitations
given that many prisoners maintain they are actuallyinnocent. Felder v Johnson,
204 F.3d 168, 171 (5th Cir)(noting that the petitioner's claim was
unaccompanied by "a showing of actual innocence")(emphasis in original), cert.
denied, 531 U.S. 1035 (2000).
And in Lara v. Stephens, 2014 U.S.Dist. LEXIS 64202 (Tex. App. Houston 1st Dist.
2004) stated:
Ihe AEDPS's one-year statute of limitations can be equitabley tolled, but
only in cases presenting "rare ard exceptional circumstances." Davis v.
Johnson, 158 F.3d 806, 810-11 (5th Cir.1998); see also Phillips v. Donnelly,
216 F.2d 508, 511 (5th Cir 2000), reh'g granted in part, 223 F.3d 797 (5th
Cir. 2000); Felder v. Johnson, 204 F.3d 168, 171-72 (5th Cir. 2000), cert,
denied, 531 U.S. 1035, 121 S.Ct. 622, 148 L.Ed.2d 532 (2000); Fisher v.
Johnson, 174 F.3d 710, 713 (5th Cir. 1999), cert, denied, 531 U.S. 1164, 121
S.Ct. 1124, 148 L.Ed.2d 991(2001). 'The doctrine of equitable tolling preserves
a plaintiff's claims when strict application of the statue of limitations
would be inequitable." United States v. Patterson, 211 F.3d 927, 930-31 (5th

13

Cir. 2000)(quoteing Davis, 158 F.3d.at 810)"...Equitable tolling is appropriate
vfoen, despite all due diligence, a plaintiff is unable to discover essential
information bearing on the existence of his claim." Fisher
at 715 n.14;
see also Pace v. Di^qgliemo, 125 s .Ct. 1807 (2005); Lawrence v. Florida,
127 S.Ct. 10 / 9, 1085 (2007).
As Tbmer has presented in his above QUESTION 1, he was Mislead by his Court
Appointed Counsel, Mr. Garland Cardwell, ("Cardwell"), in this counsels advice
and lack of persuig Turner's Rights. As theicourts have ruled previously that
"equitable tolling 'applies principally' where the plaintiff is actively misled
by the defendant about the cause of action or is prevented in some extraordianry
way from asserting his rigts." Melaeon v. Kaylo, 259 F.3d 401, 407 (5th Cir 2001)
(quoteing Rashidi v. American President Lines ,96 F.3d 124, 128 (5th Cir. 1996)).
By Turners court appointed cousnsels errenious advice, he was activly midled in
each step of these cases. By Cardwell's lack of pursuing alibi's, filing for )>
Discorvery, obtaining exculpatory evidence, etc. Turner was mislead and prevented
from asseerting his rights in these cases. Thus, Turner conducted a lengthy letter
campain, begging, pleading, and searching for the needed documents. White the
proceeding is lengly, it is by far not the only letters which Turner wrote trying
to discover and/or obtain documents, as some of Tbmer's papers have been lost
by TDCJ. Yet, Turner retains these copies and submits them collectively as
Appendix E. These show that Turner has been diligently pursuing his rights. Likewise
during a part of this time frame, Tbmer battled two (2) types of Cancer (Throat
and Lympnodes) and under went three (3) rounds of Chemo Therapies, thirty-five
(35) Radiation Treatments, and Surgery while at "Hospital Galveston" from November
10, 2014 thru January 26, 2015; while in the hospital turner had no access to
a Law Library and qjite frankly even if he did, he was too ill to effectivly write
anything as he lost over 100 lbs. in just over 62 days. Tbmer was very ill during
this period and for a time afterwards dealing with 'Chemo Brain" (confussion,
forgetfullness), extreme fatigue and difficulty retaining foods. This fulfills
the requirements set fourth by thesEdfth Circuit court in Sutton v. Cain, 722

14

F.2d 312, 316 (5th Cir. 2013) which stated:
A petitioner requesting equitable tolling must show that (i) "he has been
pursuing his rights diligently"; and (ii) "some extraordinary circumstance
stood in his way." PaceVDiGuglielmo, 544 U.S. 408, 125 S.Ct. 1807, 161 L.Ed.2d
669 (2005)(citation omitted). See also Lawrence v. Florida, 127 S.Ct. 1079,
1085 (2007)("that he has been pursuing his rights diligently, and (2) that
some extraordinary circumstance stood in his way").
Turner believes that he qualifies for equitable tolling by showing of the many
lietters which he retains copies of (Appendix E) and informing this Honorable
Court that many more were written but the copies of these were lost by TDCJ, thus
beyond Turner's control. That the time just priorto, during and after battling
Cancer, any reasonable person would know that Turner was not capable to mentally
nor physically pursue anything that required much thought or effort, as Chemo
and Radiation is extremly hard on a body and takes a lengtly recovery period.
And as stated in Holland V. Florida, 560 U.S. 631, 130 S.Ct. 2547, 177 L.Ed.2d
130, 148 (2010):
The diligence required for equitable tolling purpose is "reasonable diligence",;
see, e.g., Loncahr v. Thomas, 517 U.S. 314, 326, 116 S.Ct. 1293,___,134 L.Ed2d
440 (1996), NOT "maximum feasible diligence (emphisis added),"; Stams v.
Andrew, 524 F .3d 612, 618 (CA5 2008) (quoting Moore v. Knight, 363 F.3d 936,
940(CA7 2004), See In re Wilson, 442 F.3d 872, 677 (5th Cir. 2006)("For equitable
tolling to apply, the applicant must diligently pursue... relief."); Pacheco
v. Rice, 966 F.2d 904, 906-07 (5th Cir. 1992) (Equitable tolling is appropriate
where, despite all due diligence a plaintiff is unable to discover essential
information bearing on the existence of his claim); See Mathis v. Thaler,
■ 616 F.3d 461, 474 (5th Cir. 2010)("reasonable diligence; not maximum
feasible diligence"); Lonchar v. Thomas, 517 U.S. 314, 326, 116 S.Ct. 1293,
134 L.Ed.2d 440 (1996); and [.Several lower courts have specifically held that
unprofessional attorney counduct may, in certain circumstances, provide
egregious and can be extraordianary even though;the conduct in question may
not satisfy the Eleventh Circuit's rule. See, b;.g., Nara v. Frank, 264 F3d
310, 320 (CA2 2001)].
Therefore, Turner establishes that the State Court and.FederaL.District
courts decision was contrary to Federal Law as determined by the U.S. Supreme
Court in: Irwin v. Department of Veterans Affairs, 498 U.S. 89, (199); Bowles

v. Russell, __ U.S. - ■, 127 S.Ct. 2360 (2007); Lawrence v. Florida, __ U.S.__ ,
127 S.Ct. 1079 (2007); and Pace v. DiGuglielmo, 544 U.S. 408 (2005). As such the
Federal District Court vas in error of dismissing Turner's 2254's for these reasons
and a CDA shold have been granted on this issue.
15

QUESTION 3 - Was TUrner inadvertantly denied access to;the "gateway" of Actual
Innocence as set forth by the U.S. Supreme Copurt in: Schlup v.
Delo, 115 S.Ct. 851 (1995); Herrera v. Collins

506 U.S. 390

(1993); House v. Bell, 547 U.S. 518 (2006); and McQuiggin v.
Perkins, 133 S.Ct. 1924 (2013)? Is the courts adding additional
barriers to these holdings?
In a Schlup - type claim "is a procedural claim in whihc applicant's
claim of innocence does not provide a basis for relief, but is tied to a showing
of constitutional error at trial." Schlup v. Delo, 513 U.S. 298 , 314 (1995).
Likewise in McQuiggin v. Perkins, 569 U.S. 383, 133 S.Ct. 1924, 185 L.Ed.2d
1019 (2013) the Court stated:
We hold that actual innocence, if proved, serves as a gateway through
wich a petitioner may pass whether the impediment is a procedural bar,
as it was in Schlup and House, or, as in this case, expiration of the statute
of limitations. We caustion, however, that tenable actual innocence gateway
pleas are rare: "[A] petitioner does not meet the threshold requirement
unless he persuades the district court that, in light of the new evidence,
no juror, acting reasonably, would have voted to find him guilty beyond
a reasonable dout." Schlup, 513 U.S., at 329, 115 S.Ct. 851; see House,
547, U.S., at 538, 126 S.Ct. 2064 (emphasizing that the Schlup standard
is "demanding" and seldom met ). And in making an assessment of the kind
Schlup envisioned, "the timing of the [petition]" is a factor bearing on
the "reliability of the evidence" purporting to show actual innocence.
Schlup, 513 U.S., at 332, 115 S.Ct. 851....
1.3
-c
Likewise, the Court stated:
(Citing Murray v. Whitley,505 U.S. 333, 112 S.Ct. 2514, 120 L.Ed.2d 269
(1992))0.'LWJe think that in an extaordinary case, where a constitutional
violation has probably resulted in the conviction of one who is actually
innocent, a federal habeas court may grant the writ even in the absence
of a showing of cause for the procedural default."). In other words, a
credible showing of actual innocence may allow a prisoner to pursue his
constitutional claims [here, inefective assistance of counsel] on the merits
notwithstanding the existence of a procedural bar to relief. "This rule,
grounded;in the 'equitable discretion' of habeas courts to see that federal
constitutional errors do not result in the incaration of innocent persons."
Herrera, 506 U.S., at 404. 113 S.Ct. 853. Supra McQuiggin, 133 S.Ct. at
19317
In the Sexual Assautlt (Cause No. 4:17-CV-327), Turner shows that
exculpatory evidence existed but counsel did not pursue this. In the Reporting
Officers Narrative (Appendix F. p.15) is a notation:

16

At 1045 hrs I recived an email from [redacted] Oliver that stated "My wife
was talking to [redacted][alleged victim] last night about when the attack
took place. I don't know what date [redacted][alleged victim] told you,
but they came up with Thursday June 14, 2012. This was during Cheer camp
and was also the day my wife was released from the Hospital."
Now this alleged attack and its/date/time of occurance was tied to two
(2) additional events within their lives - Cheer Camp and wifes release from
the Hospital - thus these events and when they happened are also well known
to these individuals... and

they tied the alleged attack to this very same

period in their lives. They felt so strongly about it, they sent a written
enail to the detective investigating this matter; that is significant and is
a written statement which carries considerable weight. When I questioned counsel
about this, I get a letter (Appendix F, p. 39) from Cardwell that tells me:
Mr. Smith [Assistant District Attorney] has also agreed to provide me with
a better copy of the Affidavit, search warrant and Return dated June 29,
2012, as well as a copy of the enail you mentioned from Steve Oliver to
Officer Cox, which email is not actually part of the discovery, but Mr.
Smith indicated that he would provide a copy to me if he was able to obtain
a copy from Officer Cox.
This is exculpatory yet Cardwell nor Mr. Smith included it in any "discovery"?!
Nor did my counsel pursue it!! The second time that this EXACT DATE is confirmed
is in the SANE Exam (Appendix F, pp. 16-20 (on page 17 right below the HISTORY
OF ASSAULT paragrah)).
Yet, in response to Turner's State habeas corpus, Cardwell provided a
sworn affidavit that claims the "victim" was never sure of a date. These documents
from the State, PROVE otherwise.
Due to Turners due diligence in a massive letter writing campain, he
obtained the following documents that PROVE he was over 20 miles away with
witnesses at the time of the alleged attack, purchasing a bed with his wife
Amy ("Amy"); these are:
•Turner's Debit Card Receipt from VISA (Appendix F. p. 23)
•Cardholder Transaction Detail Report (Appendix F. p. 25)
•Turner's Bank Statement (Appendix F. p. 26)

17

•Bank's Disclosure^Statement (Appendix F. p. 27)
•Statement from Carol Sterling, Manager at Signature Home Furniture Store
(Appendix F. p. 31)
•Signature Home Furniture Store Receipt (Appendix F. p. 24)
•Also see Appendix F. p. 37 for a handwritten letter from Amy to Cardwell
detailing Turner's alibi, and p. 34. for an Affidavit of Loretta Meserve.
These documents prove that Turner was over 20 miles away with witnesses;.;
when this alleged attack happened. Thus in light of new evidence, ''it is more
likely vhan not that no reasonable juror would have found petitioner guility
beyond a reasonable dout." Schlup.-v. Deio, 513 U.S. 298 (1995) as Turner can
not be in two distinct places seperated by 20 miles, at the VERY SAME period
of time. Below is a TIMELINE of the days events:

6:30
5:15
5:50
6:10
7:00
7:30

AM
FM
FM
IM
IM
PM

9:00 PM

VERIFIABLE TIMELINE
to 5:00 IM - Turner is at work.
to 5:45 FM - In rout to Goodwill on Texoma Parkway..with Any
to 6:05 FM - Leave Goodwill on Texoma Parway to Signatrue Furniture
to 7:00 IM - Purchasing Bed at signature Furniture
to 7:30 IM - Return home with Amy and bed.
to 9:00 IM - Bob Thomas helps Turner move furniture at his home
and to set up bed.
to 5:30 AM - Turner is at home with Amy.

5:00 PM to 5:15 IM
5:15 IM to'$:30 IM
7:30 IM to ‘8:00 PM
9:30 PM

ALLEGED SEXUAL ASSAULT TIMELINE
- Cheer Camp released according to reports
- Whereabouts of alleged victim UNKNOWN.
- Alleged sexual assault occurs
- Time changes according to victim second version of
htw. andi when the sexual assault supposedly occured.

Given such, the outcome of a trial would lead a jury to find Turner notguilty of this offense, as he can not be at two seperate places at the same
time and with the claims

of the events of the attack, the very LACK OF ANY

evidence proves the claimed events did not happen. As she claimed that we
faught in the back of Turners new Dodge Pick-Up that has a built in non-skid
bed liner, anddthe,t«during this battle, Turner removed her clothes and ix.u
penitrated her^twice to the point of pain... yet the EVIDENCE SHOWS via the

18

SANE Exam Report (Appendix F. pages 16-20)

that their is "No Trama", that

there was no cuts, scraps, bruises, or anything that one would have if they
had been in any type of scuffel much less fighting in the back of a pick-up
with a non-skid bed liner! The alleged penetration - TWICE - to the "point
of pain''... the SANE Exam proves tht she was at the time of the Exam, a fully
intact virgin... so if penetration to the point of pain had occured, her hyman
would have been broken, which it was in fact not. In fact, there is not one
single piece of evidence to suppor a single point of her claim. But Turner
does have documented proof of his whereabouts with witnesses as well. The very
Lack of AY evidece to support that any crime occured, factually it must take
the form of Actual Innocence under Herrera v. Collins, 506 U.S. 390 (1993),
accord House v. Bell, 547 US. 518, 535 (2006); and Ex parte Spencer, 337 S.W.
3d 869 (Tex.Crim.App. 2011).
In the Conspiracy To Commit Arson (Cause No. 4 :17-Cy-328), Turner shows
that he was actually Indicted for a Third (3rd) Degree Felonly with NO enhancements
(Addendix F. p.13), this carries a range of punishment of TWo (2) to Ten (10)
years. The language under sections 15.02(d) Texas Penal Code demands that the
range of Rpunishment is one (1) category lower than the most serious felony,
which is a Third Degree. Counsel never informed applicnt of any enhancement.
See Childress v. Johnson, 103 F.3d 1221 (5th Cir. 1997) (prior convictions
must be alleged in indictment to be used to enhace defendant's sentence, under
Texas Law); see also Earl v. State, 870 S.W. 2d 669 (Tex.App. 1994); accord
Briggs v. Procunier, 764 F.2d 368, 371 (5th Cir. 1985) (quoting Bullard, 665
F.2d at 1357-58("The two prior convictions must be alleged in the indictment,
and upon review the allegations are treated the same as allegations of the
elembens of a substantive offense".).
Now, there was NO enhancement nor anything served on Turner indicting
otherwise. Besides, for Turner to go from a 3rd Degree Felony to a 1st Degree

19

Felondy, Turner would have to have at minimum two (2) prior Felony convictions...
which Turner DOES NOT have 9 9 only one (1), thus there is NO way under Law,

that such an enhancement could have even occured... yet Turner was given a
28 year sentence under a ISt Degree. (Appendix F. p. 13 Indictment and p. 14
for Judgment of Conviction by Court document). As stated in Haley v. Cockrell,
306 F.3d 257, 267 (5th Cir. 2002):
In order to be sentenced, as a habitual felony offender, the Texas Penal
Code requires that Haley must have been previously convicted of two felonies
and the second previous felony conviction is for an offense that occurred
subsequent to the first previous conviction having gecome final".... ”[T]he
requirements of the Texas habitual felonly offender statute have not been
satisified resulting in Haley's ACTUAL INNOCENCE of his status as a habitual
felonly offender, and consequently, the improper enhancement of his sentencing,
(emphisis added).
IUrner is not guilty of being a habitual offender and as the,. Fifth Circuit
has already stated in Haley, 306 F.3d at 263-64:
In order to be ACTUALLY INNOCENT of a non-capital sentence, the petitioner
must show that "but for the constitutional error he would not have been
legally eligible for the sentence he received." Sones v. Hargett, 61 F.3d
410, 418 (5th Cir. 1995)(citing Smith v. Collins, 997 F.2d 951, 959 (5th
Cir. 1992)).(emphisis added)
Then in Haley, 306 F.3d at 264, "we now hold tha:t the actual innocence exception
applies to non-capital sentencing procedures involving a career or habitual
felonly offender."
And in Haley, 306 F.3d at 266, 'Thus, applying the actual innocence execption
in either case meets the 'objective of protecting defendants from sentencing
based on elembnets of crimes for which they are conslusively innocent.'".
United States v. Maybeck, 23 F.3d 888, 894 (4th Cir. 1994).
Thus, Turner is not guilty of being a habitual offender so there is no
legal way to enhance Turner from a 3rd to a 1st Degree under the Texas Penal
Codes. Turner is actually innocent of a habitual offender and thus a 1st Degree
sentence of 28 years is illegal and unconstitutuonal. Only wihtithe. ineffective
assistance of counsel could such a travisty occured; a trained attorney who
has passed the Bar surly knew better than to allow this to happen, much less

20

to assist in it being done to Turner.
In the Credit/Debit Card Abuse (Cause No. 4:17-CV-326), turner shows
that the Indictment (Appendix F. p. 11) states:
...that on or about the 13th day of December, 2011, A.D., and anterior
to the presentment of this indictment, in the County of Grayson and State
of Texas, NOEL TURNER hereinafter called '’Defendant", did then and there
with intent to fraudulently obtain a benefit, present to John Ramsey or
his designated representative use a credit or debit card, namely, Capital
One Visa ending in 9480, with knowlege that the card had not been issued
to the said defenant, and with knowledge that said card was not used with
the effective consent of the cardholder, namely, Paul Boaz,
« ♦ • •

Yet Turner has obtained a copy of this Capital One VISA credit card adn
it clearly and distinctly shows Turner's name on this invoice... because Turner's
name was embossed on the card as well. The ONLY way that Turner could possess
this card is by the cardholder, Paul Boaz, contacting Capital One and having
them to issue this card in Turner.'s name, both with verbal authorization and
in the form of written authoriazation as required by Capittal ©he Bank. Paul
Boaz authorized Capital One via a recorded verbal authorization and then signed
acconcent form and faced/emailed it back to Capital One. This consent to Capital
One gave the full authorization for Turner to use this card. Turenr had this
card for over two (2) years and it was shown on every invoice form Capital
One since it was issued; Paul Boaz routinly reconsiled the invoice from Capital
One himself.
Paul Boaz frequently assisted employees with loans and payday advancements.
He made a gift of $1,500.00 to Tammy Advants who was not an employee or sub­
contractor at the time. As part of my Christmas Bonus as the Office Manager
and ALL other Admin, duties rolled into one (I was the Office), Paul Boaz
authorized the payment of my property tax - using the card, as to get the 2%
cash back that Capital One gaveon each purchase. TUrner knew that Fhul Boaz
looked over all invoices as he signed the checks to pay them; thus knew that
Paul Boaz would see this as well. If Cardwell had investigated, he would have
obtained the authorization form from Paul Boaz to Capital One to issue Turner

21

this card, and he would have found other Boaz Air employees who could attest
to these facts, yet Cardwell did nothing.
Turner is actually innocent of this offense as well as the one alleged
in the indictment and no reasonable juror would find Turner guilty beyond a
reasonable doubt.
Therefore, Turner established that the States court and federal district
court decisions were contrary to Federal Law and determined by the U.S. Supreme
Courltj. in Schlup v. Delo, 513 U.S. 298, 314 and McQuiggins v. Perkins, 569 U.S.
383 (2013).; as such the Federal District Court was in error of dismissing Turners
2254's for this reason and a COA should have been granted on this idsue.

QUESTION 4 - Did Turner reach and prove the constitutional error of •'
Ineffective Assistance of Counsel in these cases?
For ineffective counsel, Turner must show: (l) that counsels'
representation fell below an objective standard of reasonableness; and (2) thatthere is a reasonable probability that , but for counsel's unprofessionalerrors,
the result of the proceedings would be different. See Strickland v. Washington,
486 U.S. 668, 104 S.Ct. 2052, 2055-56.
Turner was represented by Mr. Garland Cardwell, appointed gy the court,
who failed to be an advocate, in the fundamental areas of defenses in (1) failing
to investigate; (2) failing to present and advance an alibi defense; (3) failing
to secure discovery; and (4) failing to file fundamental motions, in ANY of
these cases.
FAILING TO INVESTIGATE
Cardwell repeatedly told Turner thathe wouldget an investigator after
picking ja jury. Once a Jury is selected, trual begins - when on earth would
the investigator been able to do this?!
Cardwell failed to investigate key facts, such as the Time Line that is

22

verifiable bymany of the attached Exhibits in the Appendix F; that Turner
obtained via diligently pursuing his rl|ghts and innocence; using the U.S.
Postal Service to dotso. Thus, an investigator would have easily been able
to obtain these documents and MORE.
In Rcmpilla v. Beard, 645 U.S. 374, 387, 125 S.Ct. 2456 (2005) footnote
6:

The new virsion of the Standards now reads that any "investigation should
include efforts to secure information in possession of the prosecution and law
enforcement authorities" whereas the version in effect at the time of Rompilla's
trial provided that the "investigation" should always include such efforts.
ABA standards for Criminal Prosecution Function and Defense Function 4-4.1 (3rd
ed. 1993). We see no material diffrence between these two phrasipgs, and in
any case cannot think of any situation in which defense cousnel should not make
some efforts to learn the information in the possession of the prosecution
and law enforcement authoritiees".
Cardwell did nothing ot investigate anything what-so-ever. no motions were filed,
not even for an investigator.
In Anderson, the court of Appeals held:... (2) Trial counsel's failure to
interview eyewitnesses rose to the level of a constitutionally defeficient
proformance; and (3) defendant was prejudiced by trial counsels' constit­
utionally deficient performance. Writ Granted, Affirmed. See Anderson v.
Johnson, 338 F.3d 382, 391 (5th Cir. 2002).
Counsel has a duty to investigate and to interview potential witnesses and
obtain exclupatory documents. "Counsel was ineffective for failing to
investiggate and interview alibi witnesses made khown to counsel three days
beofre trial, failing to investigate witnessess..■Bryan v. Scott, 28 F.3d
1411, 1418 (5th Cir. 1994). Counsel was aware of Carol Sterling as an alibi
witness in August 2012.Counsel failed to investigate available key facts into
the alleged sexual assault that would have proved Turner innocent. The following
is a timeline of Turner's whereabouts during the time of the alleged sexual
assault. Trual counsel refused to communicate with Turenr, nor would
investigate simple verifiable fact§

cousel

discovered using diligence. Turner had

no advocate. Had these verifiable facts been discovered by Counsel, no jury
or judge could find Turner guilty.

23

VERIFIABLE TIMELINE
6:30
5:25
5:50
6:10
7:00
7:30

AM
PM
PM
IM
FM
PM

to 5:00 FM
to 5:45 PM
to 6:05 FM
to.c7:00 FM
to 7:30 PM
to 9:00 PM

- Turner is at work.
- In rout to Goodwill on Texoma Parkway with Amy.
- Leave Goodwill on Texoma Parkway to Signature Furniture.
- Purchasing bed at Signature Furniture.
- Return home with Any and bed.
- Bob Thomas helps Turner move furniture at his home
and to set up the bed.
9:00 FM to 5:30 AM - Thrner ajs at home with Amy.
ALLEGED SEXUAL ASSAULT TIMELINE

5:00 PM to 5:15 FM - Cheer Camp released according to reports.
5:15 PM to 7:30 FM - Whereabouts of alleged victim UNKNOWN.
7:30 FM to 8:00 PM - Alleged sexual assault occurs
9:00 FM - Time changes according to victim second version of
how and when the sexual assault supposedly occured.
Through documentary evidence Appendix F proves Tpmerais in a different
place when the alleged'sexual assault occurs, it proves that Turenr is not the
person v\ho committed the sexual assautlt, if one actually occured. Trial counsel
"assumes" Turifier- is guilty based upon Turner'sr.record, not verifiable Facts.
Counsel's advice to plea the case is erroneous advice. Had the jury heard the
verifiable facts, given the above timeline, no jury could cinvict. It is more
than a mere probability, but a certainty that the outcome of the proceedings
wold be different. A reasonable trier of fact would use the docmumentary evidence
as proof, and witnesses were able to testify that the documentary evidence is
fact. Turenr is not guilty, and any plea is involuntary.
The rl;|ght to effective assistance of counsel is a bedrock principle in
our justice system. It is deemed an "obvious truth" the idea that "any person
hauled into court, who is too poor to hire a lawyer, cannot be assured a fair
trial unless cousel is.jprovided for him." See Gideion v. Wainwritght, 372 U.S.
335, 344, 83 S.Ct. 792 (1963). Indeed, the right to counsel is the foundation
for our adversary system. Defense Counsel [is required toj test the prosecution's
case to ensure that the proceedings does serve the function of adjudicating
quilt or innocence, while protecting the rights of the person charged. See

24

Powell v. Alabama, 287 U.S. 45, 68-69, 53 S.Ct. 55 (1932)("The defendant•=-.
requires the guiding hand of counsel at every step in the proceedings against
hjjm. Without it, though he be not guilty, he faces the danger of conviction
because he does not know how to establish his innocence'1), vfoich is the case
here. Counsel utterly failed.
In Holsomback, That court held; (1) trial counsel's decision not to conduct
any investigation into conceded lack of medical evidence of sexual abuse was
not reasonable, and (2) counsel's failure to conduct adequate pretrial investigation
into the lack of medical evidence of sexual abuse was found. Despite this apparent
inconsistency, howerver, counsel consulted no physician in order to ascertain
the significance of the lack of medical evidence. Cousnel declined to confir
with physicians'. The court foundcounsel could not have made an informed tactical
decision by relying on only the prosecutor and his file. Had counsel interviewed
the physicain, Dr. Norlan, counsel wold have found out that sexual abuse was
"physically impossible". See Hosomback v. White,

133 F.3d 1382, 1387 (11th

d»|r. 1998) (rev'd and rem'd).
Similaryly, tiral counsel consulted no physician to account for the apparent
inconsistency of the victim's stories of the sexual assault. Counsel 1 relies
on the prosecutons file, instead of investigating the facts that could have
revealed that the attack could not have been physically possible on the bed,
or tailgate of a truck that is extremely abrasive, yet no injuries were found.
Thevictim said she was nude, and struggled with her attacker. Many inconsistent
facts were never explained, or investigated by counsel.
In Johnson, the victim testified she was forcibly undressed and raped
vaginally by two men. Within four hours of the rape, she had not washed in any
manner, yet examiner's found no physical evidence of intercourse; there were
i

no traces of sperm or semen found in her vagina. The court said that the o
petitioner had been denied the effective assistance of counsel; "counsel failed

25

to adequately and sufficiently confer with petitioner about petitioner's case
and counsel's preperation,

and counsel failedd to adequately investigate and

present the alibi defense at trial." The court ordered a new trial. See Johnson
v. Baldwin, 114 F.3d 835 (9th dir. 1997) (held that the attorney's failure to
investigate and discredit defendant's uncorroborated denial of presence at
scene of alleged rape acounted to ineffective assistance of counsel).
Similary Appendix F, page e 16-20 shows no signes of phsical injury,
trama to ths vagina, hymen, or no evidence that the vicgim's hymen was penetrated,
thus

no intercourse occured, contradicgtiqg victim's many stories to police.

Both Holsomback and Johnson are remarkably similar to Turner's case. Trial
counseldid not adequately investigate.
Trial counsel's performancewas not reasonable. Adequate investigation
is foundational in order to evaluate a defense. It is rather conceivable Turner
could have brought forth a solid defense had a rational trierr of fact heard
the evidence. In addition, exculpatory witnesses were available.
In Rompilla, the U.S. Supreme Court duly noted that:
Ihe notion that defense cousel must obtain informaiton that the State
has and will use against the defendant is not simply a matter of common
sense. As the District court points out, the Ameri|can Bar Association
Standards for Criminal Justice in circulation at the time of Rompilla's
trial [applicant's case] describes the obligation in terms no one could
misunderstnad in the circumstances of a case like this one: "It is the
duty of the lawyer to conduct a prompt investigation of the case and to
explore all avenues leading to facts relevant to the merits of the case
and the penalty in the event of conviction. The investigation should always
include efforst to secure information in the possession of the prosecution
and law enforcement authorities . The duty to investigate exists regardless
of the accused's admissions or statements to the lawyer, of facts
constituting.guilt or the accuse's stated desire ot plead guilty." 1 ABA
Standards for Criminal Justice 4-4.1 (2d ed. 1982 Supp.). Rompilla v.
Beard, 645 U.S. 374, 387, 125 S.Ct. 2456 (2005)
.v ){J - • '

In addition, the Supreme court states in footnote 6 of Rompilla, that:

the new version of the Standards now reads that any "investigation should
include efforts to secure information, in thepossession of theprosecution
and law enformecemet authorities" whereas the version in effect at the
time of Rompilla's trial provided that the "investigation" should always
include such efforst. ABA Standards for Criminal Prosecution Funciton
and Defense Function 4-4.1 (3rd ed. 1993). We see no material difference
26

between these two phrasings, and in any case cannot think of any situation
in which defense counsel should not make some efforst to learn the information
in the possession of the prosecution and law enforcement authorties." fd.
See also Martinet v. Ryan, 19-1001 (2011) Unpublished;
’
The Court goes on to say that,"[W]e long have referred [to these ABA
Standards] as guides to determine what is reasonable." Wiggins v. Smith, 539 U.S.
510, 524 (2003)(quoting Strickland v. Washington, 466 U.S. at 688), and the
Fifth Circuit has no reason to think the quoted standard !Impertinent here.
Kemp v. Leggett, 635 F.2d 453 (5th Cir 1981) (citing Herring v. Estelle,491
F.2d 125 (5th Cir. 1974).
Turner did not know at the time how to get all of the information Turner
diligently discovered. Turner was in the County Jail completely dependent
upon Tr|i|al Counsel to unearth verifiable facts, which in his duty under the
Sixth Amendment in order to be effective. Since the Timeline alibi defense
is applicant's only defense backed by evidentiary documentary proof of actual
innocence, counsel's representation falls below an objective standard of
reasonableness according to ABA guidelines, Wiggins, Rompilla and Strickland,
because counsel failed to advance his only line of defense. See Strickland,
104 S.Ct. at 2069.
a) EXCULPATORY WITNESSES
In Anderson, the Court of Appeals held: (1) defendant exhausted state
remedies; (2) trial counsel's failure to interview eyewitness rose to the
level of a constitutionally deficient performance; and (3) defendant was
prejudiced by tr!<|al counsel's constitutionally deficient performance. Writ
Granted, Affirmed. See Anderson v. Johnson,

338 F.3d 382, 391 (5th Cir. 2003).

The Court reasoned that the applicant was denied effective assistance of counsel
where counsel failed to pursue adequate investigation of the cae [as in this
case like wise], and evidence against turner. Counsel has a duty to interview
potential witnesses and to make an independent investigation of the facts
and the circumstances of the case.

27

Amy Turner, Carol Sterling, and Bob Thomas are exculpatory witnesses
thal^l develop an alibij defense that counsel never interviewed. Counsel was
aware of alibi witnesses since August 20, 2012, and January 13, 2013. See
Appendix F. page 37 & 35.
In Strickland, the Court specifically addressed ’’failure to investigate”
cal||ms, explaining that "strategic choices made after through investigation
of the Jaw and facts relevant to plausible options are virtually unchallengeable.
See Strickland, 466 U.S. at 690. The Court further explained however, "strategic
choices made, 'after'less than complete investigaton" are reasonable precisely
to the extent that reasonable professionaljudgments support the limitations
on investigations. Id. at 691. In sum, "counsel has a duty to make reasonable
investigations or to make reasonable decision s that makes particular investigatins unnecessary.” Id.
Trial counsel knew well in advance of any plea agreement that witnesses
were able to testify bringing a viable defense to Court, yet, trial counsel
does nothing in assisting Ttirner to prepare and adv ance a defense. Without
interviewing exculpatory witnesses, counsel could not make the strategic choice
that Strickland calls for. It amouts to incompetence.
Turner made trial counsel aware of Carol Sterling as an alibi witness
in August 2012. Carol Sterling wouuld have place applicant at Signature
Furniture at closing time at 7:00 PM as shown. Tiral counsel is also aware
of Amy Turner's letter which she maild to him (See Appendix F. p. 37), but
never interviewing Turners wife, which would have testified that Ibmer and
here are together from 5:15 FM until 5:30 AM the next morning.
Instead, trial counsel relies only on police reports and the file of
the prosecution which is held to be ineffective. See Holsomback, supra,;
Johhnson, Supra; Anderson, supra, Bryant, supra; Strickland, supra; Wiggins,
supra; and Rompilla, supra.

28

FAILING TO PRESENT AND ADVANCE ALIBI DEFENSE
In Ake, the Supreme Court well noted that '*Ihis Court has long recognized
that when a state brirgs its judicial power to bear on an indigent defendant
in a criminal proceeding, it mast take steps to assure that the defendant
has a fair opportunity to present his defense...., this Court held alomost
30 years ago that an indigent defendant is entitlled to the assistance of
cousnel at trial. Gideon v. Wainright, 372 U.S. 355. [A]nd such assistance
mast be effective, (citations omitted)." See Ake v. Oklahoma, 470 U.S. 78,
105 S.Ct. 1087, 1092 (1985).
•Prejudice
In Lockheart, in guilty plea cases, that court said the prejudice inquiry
will closely resemble the inquirey engaged by courts reviewing any ineffective
assistance challenges. Trial counsel failed to investigat or discover potentially
exculpatory evidence, the determination whether the error "prejudiced" the
defendant by causing him to plead guilty rather than to go to rial will depend
on the likelihood that discovery of the evidcence would have led cousnel to
change his recommendation as to the pleas. Further, the court said, [This
assssement, in turn, will depend in large part on a prediction wheter the
evidence likely would have changed the outcome of trial. See Hill v Lockheart,
474 U.S. 52, 59, 106 S.Ct. 366, 370 (1985).
In this case, prejudice is found given existing alibi evidence as shown
within this writ, no rational reasonable attorney wouuld pass up in order
to prepare a viable defense. Assuming arguendo, a reasonable attorney would
see the benefit of the alibi evidence as

a way to negate an element of the

offense, thus, no jujijy could have found Turner guilty. The out come would
have been different satisfying Strickland, no doubt that would have led counsel
to change his recommendation to accept any plea deal satisfying Lockheart.
Prejudice exists in Turner's case.

29

ALIBI DEFENSE
The alibi defense arises when there is evidence that the accused is at
a place where he could not have been guilty of paricipating in the offense.
See Amey v. State, 580 S.W.2d 836 (Tex.Crltjm.App. 1979). The given evidence
presented to support this defense is over whelming favorable. In Wallace,
the court concluded, and the HHiburton

court concurred that the presentation

of evidence and argument thaiif defendant was not present at the scene of the
crime in order to commit the crlijme, "alibi" is not an affirmative defense
for which defendant has the burden of proof, but is simply the negation of
the states allegation that the committed crime on a certain date, in a certain
location. See Wallace v. State, 75 S.W.3d 576 (Tex.App. Texarkana 2002);
accord Haliburton v. State,23 S.W.3d 192 (Tex.App. Waco 2000).
No question that Ake is violated. Turner's presented evidence does place
him in a different location, whihc negates the states allegations thus, Turner
is innocent.
FAILING TO SECUR DISCOVERY
Discovery is a basic fundamental tool that every lawyer shouls use regard­
less of any "open file" policy. Counsel may discover evidence that not ordinarily
would have been discovered. See Tex. Code P. Art 39.14.

.‘iV.

“

In Turner's case, discovery of key facts were in fact discoverable, such
as emalrfl from Steve Oliver to Officer Cox that corresponds to exhibits Appendix
F. pages 15 & 39.

Turner includes exhibit Application F. pages 2-10, as

evidence that Trial Cousel

did not file any discovery motions in ANY of Tbmer's

cases. How then, can trial counsel be the advocate that the Sixth Amendment
demands??
In Wiggins, counsel failed to investigate adequately, to the point of
ignorign the leads their inquiry yielded, like in Turner's case here. See
Wiggins v. Smith, 539 U.S. at 510. Wiggins, looked to norms of adequate investi=
gation in mitigating culpability, but Strickland,generally. hindsight is
30

discounted by pegging adequacy to ''counsel's perspective at the time" investigation
decisions are made. See Strickland, 466 U.S. at 689, and by giving a "heavym
measure of deference to consels judgments,"Id., at 691. /■
Using Canon 5 of the American Bar Association ("ABA") rules imposes a
similar obligation on counsel as found in Wiggins: ’[T]he lawyer is bound by all
fair and honrable means to present every defense that the law of the land
permits, to the end that no person may be deprived of life or liberty, but
by due process of law"; cf. ABA Canon 4 (1908) Powell v. Alabama, 287 U.S.
45, 68-69, 53 S.Ct. 55, 54 (1932).
In Balkom, that court held that petitioner was denied effective counsel
at all phases of his prosecution. Specifically, no investigation, no interviewing
of witnesses, no preparation of a defense, no discovery, no visiting of the
cr!i|me scene. See House vv ■ -Balkom, 725 F.2d 455(11th Cir. 1981). Similarly,
in Leggett, the court found retained counsel (Ineffective when cousnel did
not investigate in order to prepare a defense, nor did he discuss possible
defenses with his client. See Kemp v. Leggett, 635 F.2d 455 (5th Cir. 1981).
turner's case is IDENTICAL to Balkcom and Leggett.
Counsel's reasonableness not to even attempt discovery is deficient like
in counsel's failure to investigate, advance a proper defense, or even attempt
to discuss a possible defense. Case law consludes counsel's performance fell
below a level of reasonaableness using ABA rules as guides. Both progns of
Strickland are satisfied again.
FAILING TO FILE FUNDAMENTAL MOTIONS
In allof Ibrner's cases, it shows that NO motions filed that would enable
cousnel to perform his constitutionally mandated duties. Motions are very
fundamental in ANY criminal case. The conclusion here, is that counsel's
performance amounted to incompetence.

31

In Banks,

prior to trial, the state advised Bank's attorney there would

be no need to litigate discovery issues, representing: "we will, without the
necel^slijty of motions provide you with all discovery to which you are entitled."
Despite that undertaking, the State withheld evidence that would have allowed
Banks to discredit two essential prosecution witnesses, if it was reasonable
for Banks to rely on the prosecutions' full disclosure representation, it
was also appropriate for Banks to assume that his prosecutors would not stoop
to improper litigation conduct to advance prospect for 'gaining a conviction.

See Banks v. Dretke,

540 U.S. 668, 124 S.Ct. 1256 (2004) (rev'd).

Relief in Turners case, as .itgcannot be said Turner had effectiv|| assistance
of counsel.

CONCLUSION
The petition for a wrlijt of certiorari should be granted.
Respectfully submitted,

Date :

©/■

i

2.OT~J

32

